<html>
<title> - H.R. 795, THE ``CHIPPEWA CREE TRIBE OF THE ROCKY BOY'S RESERVATION INDIAN RESERVED WATER RIGHTS SETTLEMENT ACT OF 1999''</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  H.R. 795, THE ``CHIPPEWA CREE TRIBE OF THE ROCKY BOY'S RESERVATION 
         INDIAN RESERVED WATER RIGHTS SETTLEMENT ACT OF 1999''

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      JULY 1, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-41

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______



                   U.S. GOVERNMENT PRINTING OFFICE
59-457                     WASHINGTON : 1999



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HUNT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              CALVIN M. DOOLEY, California
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               PETER A. DeFAZIO, Oregon
GEORGE P. RADANOVICH, California     OWEN B. PICKETT, Virginia
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
GREG WALDEN, Oregon                  DONNA CHRISTIAN-CHRISTENSEN, 
MIKE SIMPSOM, Idaho                      Virgin Islands
                                     GRACE F. NAPOLITANO, California
                  Robert Faber, Staff Director/Counsel
                   Joshua Johnson, Professional Staff
                      Steve Lanich, Minority Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 1, 1999........................................     1

Statement of Members:
    Hill, Hon. Rick, a Representative in Congress from the State 
      of Montana.................................................    14

Statement of Witnesses:
    Fragua, Roger, Manager, American Indian Affairs, Enron 
      Corporation................................................    36
        Prepared statement of....................................    39
    Hayes, David J., Acting Deputy Secretary of Interior, 
      Department of the Interior.................................     3
        Prepared statement of....................................     3
    Morsette, Jim, Director, Chippewa Cree Tribal Water Resources 
      Department, Chippewa Cree Tribe of the Rocky Boy's 
      Reservation................................................     6
        Prepared statement of....................................     8
    Tweeten, Chris, Chief Counsel to the Montana Attorney 
      General, Chairman, Montana Reserved Water Rights Compact 
      Commission.................................................    15
        Prepared statement of....................................    16


  H.R. 795, THE ``CHIPPEWA CREE TRIBE OF THE ROCKY BOY'S RESERVATION 
         INDIAN RESERVED WATER RIGHTS SETTLEMENT ACT OF 1999''

                              ----------                              


                         THURSDAY, JULY 1, 1999

             U.S. House of Representatives,
                   Subcommittee on Water and Power,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met at 11:08 a.m., in Room 1334, Longworth 
House Office Building; Honorable John Doolittle [chairman] 
presiding.
    Mr. Doolittle. The Subcommittee on Water and Power will 
come to order. We are meeting today to hear testimony 
concerning H.R. 795, the Chippewa Cree Tribe of the Rocky Boy's 
Reservation Indian Reserved Water Rights Settlement Act of 
1999.
    I do want to remind everyone we have a new system in place 
that places your comments worldwide on the Internet as they are 
made. So you may wish to remember that as you are making 
private comments to each other before the microphones.
    Last year the Subcommittee held a legislative hearing on 
the Chippewa Cree Tribe of the Rocky Boy's Reservation on this 
precise subject, which is the first new Indian water rights 
settlement to come before the Congress in many years. During 
that hearing several significant policy issues critical to 
water management in the western United States were presented. 
These issues included:

          (1) The statutory, regulatory and judicial history of 
        implied Federal reserve water rights.
          (2) State jurisdiction in the appropriation and later 
        distribution of water.
          (3) The appropriate funding mechanisms to resolve 
        these problems.
          (4) The appropriate methods for determining liability 
        in Indian water rights settlements.
    Since that hearing we have worked closely with the tribe, 
the State of Montana, the departments of Justice and Interior 
and the Senate to work through these issues. I believe that 
everyone involved has a genuine desire to address the 
fundamental need the Indian tribe has for adequate water 
resources.
    We now believe we are close to reaching that goal and 
advancing the legislation. One of the most important 
initiatives we have been pursuing with the tribe is the 
opportunity to get the tribe valuable financial advice in 
exercising their water rights once we approve the settlement.
    It has come to our attention that the business community is 
interested in working with tribes to provide comprehensive 
water assessment, valuation and feasibility information at 
private sector expense.
    We have worked to bring the parties together and believe 
this is the kind of sound advice that should be available to 
tribes as they look for ways to perfect and use their water 
rights. We encourage other tribes and private sector interests 
to build on this approach.
    We would further encourage the Administration to work 
toward this type of practical approach that will allow tribes 
at the end of day to make real use of their water rights to 
meet economic development and water quality goals.
    We want to express our appreciation to the tribe and to the 
other interested parties in making progress on these issues.
    Recently we have also been pursuing language with the 
involved parties to create two titles in the legislation. 
Section 8 of H.R. 795, the Tiber water allocation, would become 
Title II, and sections 5 through 7 and 9 through 12 would then 
become Title I. The remaining miscellaneous provisions would be 
applicable to both titles. These changes will address water 
issues concerning the use of non-appurtenant water sources for 
the water rights settlement.
    Title II, on the other hand, presents an opportunity 
outside of a reserved water rights settlement for the tribe to 
pursue use of unallocated Federal project water in Tiber 
Reservoir to meet some of their additional water needs.
    The Rocky Boy's settlement process has been important for a 
number of reasons. The State of Montana and the tribe has spent 
a good deal of time working through the issues in a 
constructive fashion, taking steps to minimize the impact on 
other affected water users. Furthermore, there has been minimal 
emphasis on some of the outmoded bases for calculating these 
claims.
    We need to look to newer, more practical approaches that 
find solutions which provide tribes with real opportunities 
without making demands that may destroy the economic livelihood 
of existing water users. Interior, the tribe and the state are 
to be commended for their approach in this case and their 
ongoing flexibility as we set the parameters for future Indian 
water rights settlements.
    I look forward to hearing from our witnesses today. With 
that, let me ask our witnesses on the panel to rise and raise 
their right hands.
    [Witnesses sworn.]
    Mr. Doolittle. Let the record reflect that each answers in 
the affirmative. Please be seated. We appreciate your being 
here.
    We will begin with hearing testimony from our acting deputy 
secretary of Interior, Mr. David Hayes, who has rearranged his 
vacation plans or maybe curtailed his vacation plans to 
actually be here today to testify. I can't help but observe 
that Mr. Hayes has been, I feel, a very positive force in 
helping us bring resolution to these matters. I appreciate your 
being here, Mr. Hayes. You are now recognized for your 
statement.

    STATEMENT OF DAVID J. HAYES, ACTING DEPUTY SECRETARY OF 
              INTERIOR, DEPARTMENT OF THE INTERIOR

    Mr. Hayes. Thank you, Mr. Chairman. I appreciate those 
words. Let me say at the outset that I appreciate your 
leadership on this issue, Mr. Chairman, and also that your 
counsel Bob Faber has been an excellent individual to work with 
on this as well as the rest of his staff. We think the dialogue 
that we have had over the past several months has been 
extremely productive in the best sense of the bipartisanship 
that we are trying to bring to this issue. I wanted to state 
that for the record.
    Mr. Doolittle. Thank you.
    Mr. Hayes. I will be brief, Mr. Chairman. I have a written 
statement that I request be put in the record. I will only make 
three brief points here this morning in supplement of my 
written statement.
    First, I would like to emphasize, as your opening statement 
did, Mr. Chairman, that this western water settlement is a 
product of a state and tribal-led negotiation process. This is 
a grassroots led effort from the State of Montana, and that is 
as it should be. We in the Federal Government very much want to 
see western water settlements that are framed and negotiated by 
the real parties and interests on the state level, in this case 
the State of Montana and its citizens, including the Chippewa 
Cree Tribe of the Rocky Boy's Reservation.
    We believe it is important that the Administration and the 
Congress respect and implement the accommodations reached by 
the local, state, Federal, and tribal parties, and we are here 
to offer our support for what they have done.
    Second, the Administration believes that the Federal 
financial contribution to this water settlement is appropriate 
and is targeted to the specific needs and rights of the 
Chippewa Cree Tribe. In particular, Federal funds will be used 
to enhance on-reservation water supplies, thereby enabling the 
tribe to stretch its meager water supplies, give it more 
flexibility, and at the same time protect the interests of 
downstream non-Indian water users.
    Finally, I would like to say that as the trustee to the 
tribe, the United States has a responsibility to help make the 
settlement a reality, and we want to do whatever we can to that 
end. As you well know, north central Montana is a water short 
area. Farming and ranching are the key economic activities for 
the tribe, and water is an essential ingredient for the tribe's 
livelihood.
    I will close by just saying that after many years of 
efforts this legislation has emerged from the grassroots, from 
the state and local interests, including the tribe, with the 
help of the local, regional Federal team, and we are excited 
and hopeful that it can become law with your help, Mr. 
Chairman. Thank you.
    [The prepared statement of Mr. Hayes follows:]

  Statement of David J. Hayes, Acting Deputy Secretary of the Interior

    Good morning Mr. Chairman and members of the Committee. I 
am David J. Hayes, Acting Deputy Secretary of the Interior. It 
is my pleasure to be here today to testify on behalf of the 
Administration in support of H.R. 795. This bill represents the 
successful culmination of over eight years of negotiation among 
the United States, the State of Montana and the Chippewa Cree 
Tribe of the Rocky Boy's Reservation over water rights disputes 
being litigated in the case entitled, In the Matter of the 
Adjudication of All Rights to the Use of Water, Both Surface 
and Underground, within the State of Montana. It represents a 
true partnership among Federal, State and Tribal interests. 
Through a great deal of hard work, the parties have forged a 
water rights settlement that satisfies Tribal rights and needs, 
while also taking into account the rights and needs of non-
Indian neighbors, and enabling all affected Montanans to plan 
for the future with confidence and certainty. As you know, 
similar legislation to ratify this agreement was introduced in 
both the Senate and the House last year. However, a packed 
legislative calendar and a few eleventh-hour hurdles prevented 
the legislation from moving. We have worked closely with the 
State and the Tribe to address the questions that have come 
from the Hill and, believing that the concerns voiced have been 
satisfied, we are again here before this Committee seeking your 
support for this important legislation.
    The Rocky Boy's Reservation, located in North Central 
Montana, consists of approximately 110,000 acres and includes 
several tributaries of the Milk River. The average annual water 
supply on the Reservation is limited by hydrological delivery 
constraints and inadequate storage infrastructure. The Tribe 
has over 3,500 enrolled members and a population growth rate 
well above the typical rate for tribes of 3 percent. Tribal 
unemployment averages around 60-70 percent in an economy based 
primarily on agriculture, including raising livestock. Existing 
Reservation water use includes irrigation, livestock 
consumption, wildlife and recreational use, and municipal and 
industrial uses. The Tribe's municipal water is derived from 12 
community wells and approximately 240 individual wells. A 
majority of the domestic wells suffer from low production due 
to aquifer overdraft or improper siting. In addition, 
groundwater contamination from hydrogen sulfide, iron and 
manganese contributes to well casing corrosion and makes the 
water very unpleasant to drink or use for other domestic needs.
    Since the Tribal economy is heavily based on livestock and 
hay is the principal crop grown using irrigation, the Tribe's 
goal is to maintain, or perhaps slightly increase, the current 
level of irrigated agriculture on the Reservation in order to 
avoid having to purchase supplemental livestock forage on a 
regular basis. Without enhanced on-Reservation storage and 
other infrastructure improvements, experts calculate that, 
within 20 to 40 years, the Tribe will be unable both to 
maintain its modest agricultural base and meet the domestic 
water needs of its rapidly growing population.
    The United States, the State and the Tribe struggled for 
many years to find an immediate solution to the problem of an 
inadequate Reservation water supply. For a time, the Tribe 
viewed the only solution to be the importation of water from 
the Tiber Reservoir, a Bureau of Reclamation facility some 50 
miles from the Reservation. In this context, the water would 
have been delivered to the Tribe as part of a combined Indian/
Non-Indian system. This system would have been very expensive 
and would have required an extensive Federal subsidy. Moreover, 
this system would have cost the Federal Government far more 
than it could reasonably be expected to pay to settle the 
Tribe's water rights. Rather than pursue this expensive 
regional water system, the parties decided to focus on 
developing existing Reservation water supplies and setting 
aside funds that will be available for use in a future plan to 
supplement on-Reservation water supplies. This is the approach 
that has been adopted in H.R. 795.
    Under the terms of H.R. 795, Congress would approve, and 
authorize participation in, a Water Rights Compact entered into 
by the Tribe and the State. The Compact was enacted into 
Montana law on April 14, 1997, and recognizes the Tribe's right 
to approximately 10,000 acre-feet of water on the Reservation. 
In order to enable the Tribe to exercise its on-Reservation 
water right, the United States would contribute $24 million for 
four specific on-Reservation water development projects and 
additional funds of no more than $1 million to cover Bureau of 
Reclamation (BOR) administrative costs associated with these 
construction activities. First and foremost among the projects 
is the repair and enlargement of Bonneau Reservoir, a facility 
that has ranked in the top ten of the Department's ranking list 
of most dangerous dams. Other projects include repair and 
enlargement of several smaller on-Reservation irrigation and 
recreational dams, including East Fork, Brown's and Towe's Pond 
dams.
    H.R. 795 also addresses the Tribe's future water needs by 
providing the Tribe with the right to an additional 10,000 AF 
of water stored in Tiber Reservoir. This allocation is only a 
small percentage of the 967,319 acre feet of water stored in 
Tiber Reservoir and will not impact on any other use of the 
Reservoir. The Department has carefully considered the impact 
of the allocation on the reserved water rights of other Indian 
tribes and has concluded that such rights will not be 
negatively affected.
    It is important to note that by making the Tiber Reservoir 
allocation, the United States is not undertaking any obligation 
to deliver water to the Reservation. Section 8(d) of the bill 
expressly provides that the United States shall have no 
responsibility or obligation to deliver the Tiber allocation or 
any other supplemental water to the Reservation.
    Nonetheless, in order to assist the Tribe when the time 
comes that it needs additional on-Reservation water supplies, 
H.R. 795 provides that the United States will set aside $15 
million in trust toward the planning, design, construction, 
operation, maintenance and rehabilitation of a future 
Reservation water supply system. In addition, the bill 
authorizes BOR feasibility studies totaling $4 million to 
explore alternative methods of augmenting the Rocky Boy's 
Reservation water supply, as well as analyzing region-wide Milk 
River water availability and enhancement opportunities. One 
particular alternative that will be studied will be the 
feasibility of releasing the Tribe's proposed Tiber Reservoir 
allocation into the Missouri River for later diversion into a 
treatment and delivery system for the Reservation. We are 
hopeful that this alternative or others identified by the BOR 
studies will prove to be more realistic and reasonable 
solutions than an expensive rural water supply system centered 
upon a pipeline from Tiber Reservoir. The BOR studies should 
provide an in-depth understanding of the Milk River Basin water 
supply, its potential and limitations, that will be of valuable 
assistance to the United States, the State of Montana and 
Montana Indian tribes in our efforts to address Indian water 
rights disputes. The studies will address, as well, some of the 
water supply problems facing many small North Central Montana 
communities.
    Other components of the Chippewa Cree settlement include a 
$3 million Tribal Compact Administration fund to help defray 
the Tribe's Compact participation costs and a modest $3 million 
Tribal Economic Development fund to assist the Tribe in putting 
its water to use.
    The total Federal contribution to the settlement is $50 
million. We believe that this expenditure is appropriate and 
justified. The Tribe has presented the United States with a 
legal analysis setting forth a substantial damages claim 
against the United States. The Department of Justice and the 
Department of the Interior have analyzed the claim and 
concluded that settlement is appropriate. In addition to 
releasing the United States from damage claims, the settlement 
also will relieve the United States of the obligation to 
litigate, at significant cost and over many years, the Tribe's 
water rights. The certainty secured by the settlement is, in 
fact, its central feature. By resolving the Tribe's water 
rights, all of the citizens of this area of the State of 
Montana will be able to plan and make investments for the 
future with the assurance that they have secure and stable 
water rights.
    Like other Indian water rights settlements, the benefits to 
accrue to the Tribe and other settlement parties will be 
available only after a final water rights decree is issued by 
the appropriate court. We expect that the process of entering 
and gaining final approval of the decree will take 
approximately eighteen months to two years. As motivation to 
keep the court approval process moving, the settlement parties 
have established a three year deadline for finalization of the 
decree. The Department of the Interior is committed to 
advancing the court process and other settlement implementation 
tasks as expeditiously as possible in order to avoid having to 
seek Congressional relief from the settlement deadline. The 
Chippewa Cree Tribe has waited many years to see its water 
rights become a reality and we do not want to see that wait 
prolonged any more than is absolutely necessary.
    As I mentioned at the beginning of my statement, 
legislation to ratify this settlement was introduced last year, 
but was not passed. As the State and the Tribe will testify, 
this settlement is broadly supported within Montana, 
particularly by Governor Racicot and the State Legislature, who 
are on record as strongly supporting the settlement. Moreover, 
appreciating the value and importance of such agreements, the 
Western Governors Association passed a resolution (98-029, June 
30, 1998) reiterating its support for negotiated settlements of 
Indian land and water claims, lauding recent progress, adding 
that ``the need to resolve these disputes and redress tribal 
grievances [through settlements] is critical.''
    H.R. 795 presents an opportunity for the United States to 
ratify its first Western water settlement since the early 
1990's and the Administration strongly supports this bill. I 
hope that the members of this Committee also will support this 
non-controversial settlement and that you will encourage swift 
passage of the legislation before you.
    I will be happy to answer any questions you may have.

  David J. Hayes, Acting Deputy Secretary, Departmeent of the Interior

    David J. Hayes is the Acting Deputy Secretary of the 
Interior, He is serving as the Deputy Secretary in an Acting 
capacity pending his confirmation by the United States Senate.
    As the Acting Deputy Secretary, Mr. Hayes is the second in 
command at Interior. He is responsible for assisting Secretary 
Babbitt in supervising and administering the Department's 
bureaus and offices, including the National Park Service, the 
U.S. Fish & Wildlife Service, the Bureau of Reclamation, the 
U.S. Geological Survey, the Bureau of Indian Affairs, the 
Bureau of Land Management, and the Minerals Management Service. 
The Department has a total of approximately 70,000 employees, 
and an annual budget of approximately $8 billion dollars.
    Mr. Hayes also has responsibility for addressing legal and 
policy issues of special importance to the Department. By way 
of example, Mr. Hayes led the Interior team that acquired the 
Headwaters old-growth redwood forest in Northern California. He 
also is leading Interior initiatives related to the Lower 
Colorado River (including Southern California, Nevada and 
Arizona water supply issues), salmon recovery, hydropower 
regulation, Indian water rights matters and a number of eco-
system projects, including the Salton Sea (CA), Trinity River 
(CA), Walker Lake (NV), and others.
    Before entering the Administration in early 1997, Mr. Hayes 
practiced law for nearly twenty years in the environmental and 
natural resources field. Immediately prior to his Federal 
service, he was a partner in the Washington, D.C. office of the 
national law firm of Latham & Watkins where he chaired the 
office's Environmental Department. Mr. Hayes is a former 
Chairman of the Board of the Environmental Law Institute, a 
non-profit research and publication center for environmental 
law and management professionals.
    Mr. Hayes received an A.B. from the University of Notre 
Dame in 1975, summa cum laude, and a J.D. from Stanford Law 
School in 1978. He clerked for Judge William Jones and Judge 
Louis Oberdorfer on the United States District Court for the 
District of Columbia, He lives in Arlington, Virginia with his 
wife, Elizabeth, and their three children.

    Mr. Doolittle. Thank you.
    Our next witness is Mr. Jim Morsette, Director of the 
Chippewa Cree Tribal Water Resources Department within the 
Chippewa Cree Tribe of the Rocky Boy's Reservation. Mr. 
Morsette.

STATEMENT OF JIM MORSETTE, DIRECTOR, CHIPPEWA CREE TRIBAL WATER 
 RESOURCES DEPARTMENT, CHIPPEWA CREE TRIBE OF THE ROCKY BOY'S 
                          RESERVATION

    Mr. Morsette. Good morning, Mr. Chairman. Mr. Chairman, 
Representative Rick Hill, I bring you greetings from Rocky Boy, 
Montana and invite you to come back to visit our reservation. 
It's a unique reservation located in the Bear Paw Mountains. We 
would appreciate it if you would come back and just see how the 
Chippewa Cree live.
    I would like to introduce our Tribal Chairman in the 
audience, Mr. Bert Corcoran, and staff sitting behind me, Mr. 
Dan Belcourt, our staff attorney, and our water attorney, Mrs. 
Yvonne Knight, sitting directly behind me.
    I have detailed written testimony from the tribe that I 
would like to submit for the record.
    I would like to start out by, first of all, thanking the 
Creator, thanking our God for allowing me to be here and for 
the many blessings that our Creator has given me in my personal 
life and my family. I would like to offer some prayers to the 
Chairman of the Committee, Mr. Hill, and the people you 
represent, everyone sitting in this room. The prayers that we 
need around the world today. I would like to say that our 
belief in the Creator founded our reservation.
    Our tribal people, the elders, have wandered around. We 
were unable to accept some of the treaty conditions that were 
laid out in the early 1800s, for whatever reasons. I'm not 
really privy to that, but our people wandered for years trying 
to find a homeland.
    In 1916 Congress granted the Chippewa Cree Tribal Homeland. 
That was all part of the Assiniboine military reservation. What 
we wanted was a place to live, practice our way of life, and to 
raise a family, and we wanted to be able to do that in a home 
where we could say ``this is our land,'' and we wanted to be 
able to provide for the economic future of our people and raise 
them accordingly.
    We found that in Rocky Boy's, but as time went on we became 
more populous. It was never suitable for us to be sustainable. 
We don't have enough water in that region, and by this 
agreement that we worked out with our neighbors we satisfied 
all our neighbors. We satisfied our neighbors and the tribe's 
needs.
    What we began as a pursuit years ago we are finally seeing 
as a reality. Hopefully today we have come to realize that we 
do have a homeland now for the Chippewa Cree Tribe that we can 
call home and practice our culture and raise our children.
    This has been a long struggle for us. We started this 
process in 1989. Our Tribal Council appointed a water rights 
negotiating committee, and we had a very sacred pipe ceremony 
where we sat down in the floor of our chambers and said this is 
a spiritual journey; what we are dealing with is the sacredness 
of water, the essence of all life. Without water there is no 
life. We came to understand that and we want to share what we 
call a resource today not only with our neighbors and our own 
tribal members, but with the animals we need for our 
livelihood. For everything that it takes to live this water is 
that life.
    I might add that the chairman of our committee, my 
immediate boss, is a sundance maker. As we speak, he is in 
fasting right now. We have our annual sundance with a fast up 
to four days without water, without food. So that is what he is 
doing right now. It is to give reverence to this gift that we 
have, this water, this life that we have that we are talking 
about today.
    So we don't take this lightly. This is a big journey that 
we are on. This is probably the most important venture I've had 
in my life that I have committed myself to, bringing water to 
our Chippewa Cree people and the surrounding community so we 
could live together and raise our families.
    That is what we are here for today. All the technical 
things that we have are written in our testimony. I would want 
to share that with you and bring to the Committee about how we 
feel and reverence that we have for this issue that we talked 
about today.
    In our settlement we have enough water. We have 
approximately 20,000 acre-feet that comes off of Rocky Boy, and 
we took 10,000 acre-feet of that to satisfy some of our storage 
rights, storage facilities, so we could irrigate, so we could 
have recreation, so we can have fisheries.
    The other 10,000 acre-feet is from Tiber Reservoir. We have 
enough funds to build these facilities, enough money in there 
to satisfy the implementation of the compact. It's a package 
deal that we feel we worked out with the United States 
Government, with the State of Montana, including the county 
commissioners, the local ranchers, and we think we have done it 
for everyone's benefit.
    I will answer any questions you might have, and I want to 
thank you for the opportunity to testify.
    Mr. Doolittle. Thank you very much.
    [The prepared statement of Mr. Morsette follows:]

 Statement of Jim Morsette, Director of the Chippewa Cree Tribal Water 
Resources Department on behalf of the Chippewa Cree Tribe of the Rocky 
                           Boy's Reservation

    Chairman Doolittle and Honorable Members of the Committee:
    My name is Jim Morsette. I am the Director of the Water 
Resources Department of the Chippewa Cree Tribe of the Rocky 
Boy's Reservation. I am here to testify on behalf of the Tribe 
in support of H.R. 795 entitled ``The Chippewa Cree Tribe of 
the Rocky Boys Reservation Indian Reserved Water Rights 
Settlement Act of 1999.'' I am accompanied today by the 
Chairman of the Tribe, Bert Corcoran, and the Tribe's 
attorneys. Thank you for the opportunity to testify in favor of 
H.R. 795. I submit, for the record, the Tribe's detailed 
written testimony. I would also like to take this opportunity 
to express the Tribe's great appreciation to Representative 
Rick Hill and his staff, especially Rob Hobart, and to the 
Chairman of this Subcommittee, Representative John Doolittle, 
and the staff of this Subcommittee, especially Robert Faber and 
Josh Johnson, for their hard work and diligence in moving this 
bill forward.
    H.R. 795 represents a milestone of momentous significance 
in the century-long struggle of the Chippewa Cree people to 
secure a viable self-sustaining tribal homeland. The bill and 
the Water Rights Settlement Compact, which the bill ratifies, 
are the culmination of 16 years of technical and legal 
research, and negotiation, among the Tribe, the State of 
Montana, and the Administration. This bill and the Compact 
signal a turning point in the Chippewa Cree Tribe's history, 
for these documents set the foundation for the realization of 
the Tribe's vision of the Rocky Boy's Reservation as a self-
sustaining homeland for the Chippewa Cree people. The Tribe has 
been working toward this end since well before 1916 when the 
United States set aside the Rocky Boys Reservation for the 
Chippewa Cree people. Implementation of the bill and the 
Compact will provide the Tribe with the elements needed to 
successfully develop the Tribe's economy--a long-term water 
supply sufficient for drinking and agriculture, and funds to 
put this water to use. The bill and Compact also represent the 
fulfillment of the trust obligation of the United States to the 
Chippewa Cree Tribe to provide the Tribe with sufficient water 
to enable the Tribe to develop its Reservation into a self-
sustaining homeland for the Chippewa Cree people.

1. HISTORY OF THE TRIBE'S EFFORTS TO SECURE A VIABLE HOMELAND

A. THE LONG ROAD TO ESTABLISHMENT OF A RESERVATION

    As early as 1893, our forefathers were petitioning the 
United States to set aside a reservation for the Chippewa Cree 
people in Montana, who were attempting to live and work in 
northern Montana as their ancestors had for centuries before 
them. Being without a federally set aside land base, they 
became known as and referred to in Montana as the ``landless'' 
Indians. The Chippewa Chief Rocky Boy and the Cree Chief Little 
Bear led these early efforts of our people to secure a 
permanent tribal homeland in Montana. In 1902, a petition by 
the Chippewa Cree to President Theodore Roosevelt finally 
prompted Federal efforts to establish a reservation in Montana. 
Those efforts were ineffectual until Federal land became 
available with the abandonment of the Fort Assiniboine military 
reserve in 1911. Chief Rocky Boy, in a letter on June 14, 1915, 
pleaded with Congress to set aside for the Tribe the northern 
portion of the military reserve which had the better land and 
greatest volume of water.
        I and my people are anxious to have a home; to settle down and 
        become self-supporting. Other tribes have their own land and 
        homes; we are homeless wanderers. We are anxious to learn to 
        farm, and if given land that can be farmed and which will be 
        our own, we will soon be self-supporting.
    Regarding the pending legislation to divide up the military reserve 
land between the Tribe and the local non-Indian community, 
Superintendent Jewell Martin, whose duties included the supervision of 
Rocky Boy's band, said predictably:

        If they should pass the bill giving only the two south 
        townships we will still have the Rocky Boy problem, as they 
        will still have no home.
    In 1916, Congress enacted a law setting aside the Rocky Boys 
Reservation for the Chippewa Cree Indians on little more than two 
townships, about 55,000 acres, in the least productive southern portion 
of the abandoned military reserve. About 450 Chippewa Cree people 
settled on this Reservation. Consequently, the Reservation from the 
beginning did not contain adequate water or land to sustain the Tribe. 
The part of the military reserve that contained the best land and the 
most water was granted by Congress to the local non-Indian community 
for a recreational and sportsmen's park.

B. A WATER-SHORT RESERVATION

    From the very beginning, the United States recognized that the 1916 
Reservation lacked sufficient land and water to make the Reservation a 
viable homeland for the Chippewa Cree Tribe. The Chippewa Cree tried to 
farm their Reservation, which was described in Federal Annual Reports 
as ``rough, dry unsettled section of old military reserve'' and ``not 
suited to farming.'' These reports, from 1918 through the 1930's, were 
replete with statements that the Reservation was not suited to farming, 
and that irrigation was difficult or not possible and more water was 
needed. They said farming would not lead to self-sufficiency; stock 
raising was felt to be the only feasible activity, provided enough 
winter feed was available. These reports provide a litany of crop 
failures due to drought, short season, lack of equipment and horses, 
and a picture of dogged perseverance against these formidable odds.
    Irrigation was essential to stock-raising as well. The 1937 Federal 
Extension Report stated that, besides being the sixth consecutive year 
of near complete crop failure:

        The cattle industry received a severe blow this year when no 
        feed was produced to carry the stock through the winter. The 
        breeding stock was culled very closely and approximately 50 
        percent of them were put on the market. Three hundred fifty-six 
        selected cows and one hundred thirty-eight steer calves were 
        shipped to Dixon, Montana, for winter feeding. Thirty bulls and 
        three milk cows are the only Indian cattle remaining on the 
        reservation. The livestock men were very discouraged.
    Commissioner Collier lamented that the Reservation was ``entirely 
inadequate for the needs of the Indians for whose benefit it was set 
aside . . .'' Due to the prevailing unfavorable crop and livestock 
conditions, and the lack of irrigable land and water, the Indians and 
the United States began to look for ways to enlarge the Reservation. 
During subsequent years, various Federal efforts to obtain additional 
land and water for the Tribe and to develop the Tribe's agricultural 
projects were undertaken. However, these efforts largely failed because 
of poor planning and implementation by the Federal Government, and 
because of the legal uncertainty over the nature and scope of the 
Tribe's water rights.

C. INEFFECTUAL FEDERAL EFFORTS TO SECURE SUFFICIENT WATER FOR THE 
RESERVATION

1. Poor Federal Land Purchase Decisions

    In the 1930's and 1940's the United States purchased land for the 
Rocky Boy's Reservation, adding approximately forty-five thousand 
(45,000) acres to the Reservation. Unfortunately, the additional lands 
did little to alleviate the Reservation's problems. The lands acquired 
were scattered, of poor quality, and were without significant water 
resources. The Chippewa Cree still could not raise enough crops or feed 
for stock to meaningfully improve reservation conditions. The United 
States recognized the Reservation was still wholly inadequate as a 
self-sustaining homeland. This is evidenced by the government's 1938 
Land Acquisition Plan for the Rocky Boy's Reservation which planned for 
a reservation of more than 800,000 acres with access to the Milk River 
Irrigation system--a plan which was never implemented.
    In the 1930's, the United States took options for the Chippewa Cree 
Indians on approximately 30,000 acres, under the submarginal land 
program. The intent of this program was to take submarginal land out of 
commercial farm production forever. The program was ill-suited to the 
Chippewa Cree's needs; the government's ill-advised decision to utilize 
the program as a way to obtain more lands for Indians was made worse by 
the poor land selections made, when better lands were available. The 
government planned to carve up the submarginal lands into subsistence 
farms for the Indians. But without water or sufficient irrigable land, 
even subsistence farming could not succeed. Before the purchases could 
be completed, funding for the submarginal land program fell through and 
the options were transferred to the Indian Reorganization Act, which 
allowed for purchases of lands to be added to reservations.
    The Indian Reorganization Act did not require the purchase of 
submarginal lands. Nevertheless, rather than identifying lands better 
suited to the Indian's needs, against the recommendations of the 
Reservation Superintendent, and over the objections of the Indians and 
government personnel, the Indian Office accepted wholesale the badly 
scattered options taken under the submarginal land program.
    Subsequent purchases were an effort to consolidate the scattered 
purchases to simplify fencing and alleviate jurisdictional problems. 
Even less attention was given to obtaining irrigable lands with water 
rights. In fact, good sources of water were sold or traded away in 
efforts to consolidate purchased land through land and lease exchanges.

2. Failure to Obtain and Develop Adequate Water and Land for the Tribe

    In 1937, the United States developed a greatly detailed land 
purchase plan, which was said to be the result of the collaboration of 
all units of the Indian Service, and endorsed by the Tribe. Even 
without consideration for a normal population increase, the plan called 
for the purchase of an additional 660,000 acres, including 16,000 acres 
of irrigated land, at a cost of $5,040,000, to serve the then-existing 
Reservation population of 150 families and 400 eligible homeless 
families. The purchase area took in part of, and was intended to 
benefit from, the Milk River Irrigation System. While never followed, 
this plan has apparently never been discarded.
    From the beginning, the United States recognized that water for 
irrigation was needed, but did little to obtain it. The supervising 
engineer investigated Indian water rights and reported in 1926 that 
Indian rights were doubtful because of the late date of the 
Reservation, and that diversions by Indians from creeks should not be 
encouraged. The United States did not make a determination as to 
whether this was legally correct; instead the United States deferred 
continually to non-Indian interests. Thus, no irrigation project was 
ever built or utilized at the Rocky Boy's Reservation.

3. Failure to Provide the Tribe with a Self-Sustaining Tribal Homeland

    The United States' mismanagement of tribal resources on the 
Reservation was at great expense to the Tribe. Poor land purchase 
decisions provide the most egregious example. While more suitable lands 
were available, purchased lands either lacked usable water rights or 
lacked the quality to support irrigation development. A key example is 
the existing Bonneau Dam. This facility could have easily been designed 
and constructed, at a reasonable cost, at a greater storage capacity 
that could have been utilized to adequately irrigate the Tribe's 
cropland. Instead the impoundment was built at 25 percent of the needed 
capacity. As a result, the Tribal irrigation project has continuously 
suffered from water shortages due to lack of required supplemental 
storage water. Yet another example is the chronic past under-
performance of the Tribe's agricultural lands due, among other things, 
to lack of training, equipment and water for irrigation. In addition, 
thousands of acres of purchased lands were never farmed. The Tribe has 
suffered and continues to suffer tremendously, financially and 
otherwise from the United States' historic mismanagement of its 
resources.
    The Federal Government's efforts to secure land and water for the 
Tribe diminished over the years. However, the Tribe never ceased to 
press forward in its quest for a viable permanent homeland--a critical 
goal being to secure rights to sufficient water for its people and its 
economy.

II. THE CHIPPEWA CREE TRIBE'S NEED FOR WATER

    Presently, the Rocky Boy's Reservation occupies about 125,000 acres 
(see attached map of the Reservation and its drainage's). The 
Reservation has never been allotted, and all land is held in trust by 
the United States for the Chippewa Cree Tribe. The present population 
on the Rocky Boy's Reservation is about 3,500. The population is 
expected to increase at an average annual growth rate of at least 3 
percent. Unemployment on the Reservation is at least 70 percent. The 
annual per capita income of a tribal member on the Reservation is 
$4,278 as compared to $14,420 for the nation as a whole (based on 1989 
dollars). The percentage of tribal members who live below the poverty 
level is significantly higher than that of the general population in 
the United States.
    The current water supply systems on the Reservation were designed 
by the Indian Health Service (IHS) with an average day rate of 60 
gallons per capita per day (GPCPD). This is significantly below the 
current Montana average municipal use rate of 200 GPCPD. It is 
estimated that only 1,400 out of 3,500 Tribal people are connected to 
the existing system. As such, the primary sources of domestic water are 
well systems. Unfortunately, many private Chippewa Cree homes on the 
Reservation are using wells that provide poor quality water of limited 
quantity. Some of these localized sources are contaminated. These 
individuals, when possible, must be hooked up to the municipal system.
    The availability of water for domestic and municipal purposes is a 
major concern. There is great difficulty in developing reliable wells 
from the groundwater aquifers. The quantity of water from the shallow 
aquifers on the Reservation is not sufficient for sustained domestic 
use. The quality of water from deeper aquifers is not suitable for 
domestic use, although such water may have some use in the future for 
certain industrial purposes. The IHS acknowledges that long-term future 
water supplies must come from imported sources of supply.
    Wastewater treatment on the Reservation is provided by either 
individual septic systems or by community lagoon systems that are 
marginally effective under the current conditions. Because many of the 
Tribal wells are located in close proximity to these wastewater systems 
and to stock grazing areas, there is a continuing threat to the water 
supply from bacterial and viral contamination. Before a chlorination 
unit was added to the current Rocky Boy Rural Water System (System) in 
March, 1992, boil orders were occasionally imposed on water from the 
System due to contamination of one of the system wells. As the 
population continues to increase at a relatively rapid pace, 
improvements to the wastewater collection and treatment facilities will 
be needed to protect existing ground and surface water needs.
    Current use, even at the limited IHS per capita usage level, 
basically utilizes all of the available developable potable groundwater 
supply on the Reservation. There is little potential for expanding the 
existing well systems. Present demands, if based on the Montana average 
usage rate of 200 GPCPD, cannot be met by either the well field supply 
or the capacity of the existing delivery system infrastructure. Supply 
is not available to serve the existing population on the Reservation, 
much less future water requirements, as demand increases by 243 percent 
in the year 2025 and 438 percent in 2045.
    H.R. 795 provides funds to enlarge the Bonneau Dam and Reservoir as 
well as other minor storage facilities. The Tribe plans to use the 
water from the increased storage in Bonneau Reservoir to meet their 
current irrigation water storage needs and to increase agricultural 
development on the Reservation. However, even storage water from an 
enlarged Bonneau Reservoir was to be used to supply drinking water, at 
the expense of the Tribe's agricultural economy, the water would be 
sufficient only until the year 2025. If per capita use increases to 
target levels, then water supply could run out as early as 2016.
    Presently, there are a maximum of approximately 1,100 acres of 
actively irrigated land on the Reservation utilizing about 2,000 acre-
feet/year (AFY) of water. This acreage includes about 650 acres served 
by Box Elder Creek and about 450 acres served by Gravel Coulee and 
groundwater. Even this limited acreage does not receive a full water 
supply in one out of two years, requiring use of cropping patterns that 
include early season water use crops such as barley and wheat. In most 
years, considerably less than this noted acreage base is irrigated. The 
settlement contemplates the expansion of the Tribal irrigation base 
from 1,100 to 2,500 acres through the enlargement of two on-Reservation 
reservoirs, Bonneau Reservoir and Towe Ponds. The Compact provides the 
Tribe with approximately 7,700 AFY from direct flow, storage, and 
groundwater from Big Sandy and Box Elder Creeks to serve the expanded 
Tribal irrigation base. It should be noted that the good quality 
storage water in an enlarged Bonneau reservoir must be mixed with the 
poor quality Missouri Ancestral Channel groundwater resources or the 
groundwater supplies cannot be utilized. Without the programmed 1915 
acre-feet of groundwater, less than 2,000 acres of land can be 
irrigated. If an enlarged Bonneau Reservoir water supply is dedicated 
to municipal uses, then the groundwater resources allocated for use by 
the Tribe in the Compact for irrigation are lost. This affects about 20 
percent of the Tribe's local water rights negotiated under the Compact.
    Clearly, a dependable source of high quality water is needed to 
enable the Tribe to achieve an adequate standard of living and quality 
of life. An adequate supply of water is the cornerstone of economic 
development on the Reservation. Without an adequate supply of good 
quality water, the Tribe can never achieve its long-standing goal of 
economic self-sufficiency.

III. SETTLEMENT OF THE CHIPPEWA CREE WATER RIGHTS CLAIMS--THE COMPACT 
AND THE CONGRESSIONAL ACT.

    The Tribe's best opportunity to obtain an adequate water supply for 
its current and future needs began in 1982 when the United States filed 
water rights claims for the Tribe in Montana water court. Subsequently, 
the United States, the Tribe and the State of Montana entered into 
negotiations to settle the Tribe's water rights claims. The Tribe 
constructed a water rights settlement plan to further the ultimate goal 
of making the Rocky Boy's Reservation, a self-sustaining homeland. The 
settlement plan consists of four main elements: (1) quantification of 
on-Reservation water and establishment of a water administration 
program; (2) supplementation of the on-Reservation drinking water 
supply to meet future population needs; (3) construction of on-
Reservation facilities to deliver drinking and irrigation water; and 
(4) compensation for Federal failure to protect the Tribe's water 
rights followed by Tribal release of claims against the Federal 
Government for such breach of trust. The Tribe's settlement plan would 
require negotiation of a Compact with the State of Montana settling 
issues of quantification and administration of on-Reservation water 
supplies. The plan would require enactment of the bill before you today 
to ratify the Compact, provide a source of water to supplement the 
short water supply on the Reservation, authorize the construction of an 
on-Reservation distribution and irrigation system, and provide an 
economic development fund.

A. THE CHIPPEWA CREE-MONTANA COMPACT

    In 1982, pursuant to state law, the Federal Government filed water 
rights claims in Montana water court for the Chippewa Cree Tribe. The 
Tribe then notified the State of Montana that the Tribe wished to 
negotiate a settlement of its water rights claims. At that point, the 
State water court stayed proceedings on the Tribe's claims pending 
settlement negotiations involving the Tribe, the State and the United 
States. The Tribe then commenced the formidable task of negotiating a 
compact with the State of Montana and the United States which settles 
its water rights claims.
    On April 14, 1997, after 10 years of extensive technical studies 
and five years of intensive negotiations, the Chairman of the Chippewa 
Cree Tribe and the Governor of Montana signed an historic water rights 
compact between the two governments. The Chippewa Cree-Montana Compact 
accomplished the first element of the Tribe's settlement plan--it 
quantifies the Tribes water rights and establishes a joint Tribe/State 
water administration system. The Compact was ratified by the Tribe on 
February 21, 1997 and was approved by the Montana Legislature on April 
10, 1997. The Chippewa Cree Tribe thus became the third tribe in 
Montana, after the Northern Cheyenne Tribe and the Assiniboine & Sioux 
Tribes of the Fort Peck Reservation, to agree to a water rights compact 
with the State. However, with few exceptions, all provisions of the 
Compact are subject to approval by the United States Congress.
    The Compact establishes the Tribe's water rights to the Big Sandy, 
Box Elder, and Beaver Creeks on the Reservation, and contemplates 
tribal rights to supplemental water for drinking. The Compact provides 
for 9,260 AFY from the Big Sandy Creek and its tributaries, and 740 AFY 
from Beaver Creek. The Tribe reserves the right to divert from surface 
water flows for irrigation and other uses from the Lower Big Sandy 
Creek, Gravel Coulee, and from Box Elder Creek. Additional water for 
irrigation provided by the Compact will enable the Tribe to expand its 
irrigation base from 1,100 acres to 2,500 acres. On Beaver Creek, the 
Tribe reserves the right to divert from surface water flows for 
recreational uses, subject to a requirement that 280 acre-feet be 
returned to the stream. The Compact does not address broad issues of 
jurisdiction over water quality. The Compact does address specific 
water quality concerns raised by non-Indian water users in provisions 
that provide (1) for Tribal releases of reservoir water for water 
quality maintenance on Lower Big Sandy Creek for downstream stock 
watering purposes (Article IV.B. 1. c&d.), and (2) for the 
establishment of a joint Tribal/State system for monitoring salinity 
levels of surface and groundwater associated with the contemplated 
enlargement of Towe Ponds (Article IV.B.2.b.).
    The Compact also calls for Tribal administration of its water 
rights. The Compact specifies that any change in water use must be 
without adverse effect on other water users. To resolve disputes 
concerning water use between Tribal and non-tribal water users under 
the Compact, a pre-adjudication Tribal/State administrative process is 
established, and an adjudicatory process is established consisting of a 
Compact Board made up of three members: one Tribal, one local off-
Reservation, and one chosen by the other two.
    The Administration, while supportive of the quantification aspects 
of the Compact, declined to sign the Compact for the United States 
primarily because the issue of a supplemental water supply for the 
Tribe had not been resolved. With the signing of the Compact, 
Congressional legislation became the next step. This necessarily 
involved continuing negotiations with the Administration to obtain its 
support.

B. CONGRESSIONAL ACTION IS NEEDED TO RATIFY THE COMPACT, PROVIDE 
ADDITIONAL SOURCES OF WATER FOR THE TRIBE, AND PROVIDE COMPENSATION FOR 
THE TRIBE'S RELEASE OF BREACH OF TRUST CLAIMS AGAINST THE UNITED STATES

    The Chippewa Cree-Montana Water Rights Compact, intended to 
permanently settle all existing water rights claims of the Chippewa 
Cree Tribe in the State of Montana, accomplishes one important element 
of the Tribe's settlement plan. The remaining three elements--
supplementation of the on-Reservation drinking water supply to meet 
future population needs; construction of on-Reservation facilities to 
deliver drinking and irrigation water, and compensation for Federal 
failure to protect the Tribe's water rights followed by Tribal release 
of claims against the United States--must be obtained through 
congressional action. In addition, congressional ratification of the 
Compact is needed to confirm the quantification of the Tribe's water 
rights under that agreement. Because of the permanence of the 
settlement, once secured by congressional legislation, the Tribe seeks 
a settlement that provides not merely for its present water needs, but 
also for its future water needs.
    Accordingly, each and every provision of H.R. 795, entitled ``The 
Chippewa Cree of the Rocky Boy's Reservation Indian Reserved Water 
Rights Settlement Act of 1999,'' was negotiated among the Tribe, the 
State and the Administration over a period of one year. Thus, H.R. 795 
has the support of all three parties--the first water rights settlement 
to have such support. The bill would accomplish the following:

        1. Ratify the Chippewa Cree-Montana Water Rights Settlement 
        Compact providing 10,000 AFY from surface and groundwater 
        sources on the Reservation.
        2. Authorize the appropriation of $3,000,000 to the Tribe to 
        perform its administration obligations under the Compact, such 
        as the installation and maintenance of Compact-required water 
        gauges, and the staff costs associated with administration of 
        the Tribe's Compact-related obligations. However, except for 
        $400,000 for capital expenditures, the Tribe may expend only 
        the interest on this fund for Tribal Compact administration 
        obligations.
        3. Authorize the appropriation of $25,000,000 to the Department 
        of the Interior for the Bureau of Reclamation for the 
        construction of certain on-Reservation water development 
        projects, including the enlargement of Bonneau Dam and other 
        designated on-Reservation dams. The Tribe expects to assume 
        responsibility for this work under its Self-Governance Compact. 
        The Tribe and the Bureau of Reclamation have negotiated the 
        terms of an agreement as to the Bureau's oversight role in this 
        work.
        4. Authorize the allocation of 10,000 AFY from Lake Elwell 
        located behind Tiber Dam, a Bureau of Reclamation project, 
        approximately 50 miles from the Reservation on the Marias 
        River, to provide a source of future drinking water supplies 
        for the Tribe. Lake Elwell has a capacity of almost 1 million 
        acre-feet. Average annual inflows to Lake Elwell exceed 700,000 
        acre-feet per year. Roughly 400,000 acre-feet of this capacity 
        is in the active storage pool, thus available for release to 
        downstream use. The Bureau currently has entered contracts for 
        the allocation of less than 8,000 acre-feet per year. This is 
        due to the fact that the original Pick-Sloan plan was based on 
        the reservoir serving 120,000 acres of new irrigated land, of 
        which essentially none has been developed. The 10,000 acre feet 
        in Lake Elwell replaces on-Reservation reserved water rights 
        claims, which, under the water settlement, are released by the 
        Tribe to satisfy existing water needs of downstream non-Indian 
        water users. The Tribe's Lake Elwell water rights are not 
        Winters/reserved water rights. The rights are BOR project water 
        rights assigned to the Tribe in perpetuity by H.R. 795. Under 
        the Compact, the Tribe can market its Lake Elwell project water 
        rights for use off the Reservation. However, such marketing is 
        expressly subject to applicable state law. See, 85-20-601, MCA 
        (1997), Article IV.A-4.b.(1) and Article VI.A.1. In addition, 
        the Compact provides that any such marketing shall not exceed 
        100 years; shall not be permanent; and shall not be transferred 
        to a location outside the Missouri River drainage. See, id, 
        Article IVAA.b. And further, the Compact gives Milk River water 
        users the right of first refusal in any marketing of Lake 
        Elwell water rights outside of the Milk River drainage. See, 
        id, Article IV.A.4.b. If any precedent is set by the Chippewa 
        Cree water rights settlement as to the right of tribes to 
        market water off the reservation, it is only that such rights 
        must be negotiated with the affected states and non-Indian 
        water users to mitigate any concerns raised, to the 
        satisfaction of all parties. The allocation of Lake Elwell 
        water does not impose on the United States a present obligation 
        to develop or to transport the allocated water to the Rocky 
        Boy's Reservation. However, the bill authorizes other 
        appropriations intended to pave the way for the future 
        importation of water to the Reservation.
                a. $1,000,000 is authorized to be appropriated to the 
                Department of the Interior, through the Bureau of 
                Reclamation, to perform a municipal, rural, and 
                industrial feasibility study of water and related 
                resources in North Central Montana for the purpose of 
                evaluating alternative means of transporting needed 
                water to the Reservation. ($3,000,000 is authorized to 
                be appropriated to the Department of the Interior for a 
                regional feasibility study of water and related 
                resources in North Central Montana.)
                b. $15,000,000 is authorized to be appropriated to the 
                Department of the Interior for the Tribe, to be used as 
                seed money for future water supply facilities needed to 
                import drinking water to the Rocky Boy's Reservation 
                consistent with the agreement of the Tribe, the State, 
                and the United States that importation of water is 
                necessary to meet the current and future drinking water 
                needs of the Tribe. However, the Tribe expects that it 
                will be required to return to Congress in the future 
                for additional moneys to fund the final design of a 
                future water importation system.
        5. Authorize the appropriation of $3,000,000 for a Tribal 
        economic development fund.
    The Tribe may expend the funds appropriated for the Rocky Boy's 
Reservation feasibility study and for Tribal Compact administration 
obligations immediately upon appropriation. However, all other funds 
may not be expended by the Tribe until a final decree is entered by the 
Montana water court dismissing the Tribe's water rights claims. Upon 
entry of the final decree and appropriation of the funds authorized by 
H.R. 795, the Tribe's waiver and release of damages claims against the 
United States will become effective.
    The history of the United States' breach of trust toward the 
Chippewa Cree Tribe--poor land choice decisions, poor land management, 
and failure to obtain sufficient water for, or to protect the little 
water available to, the Rocky Boys Reservation--justifies a substantial 
Federal contribution to the Chippewa Cree water settlement in the form 
of authorization of Federal projects and an economic development fund. 
By enacting H.R. 795, the United States will at long last set a firm 
foundation for providing sufficient water to support the Rocky Boy's 
Reservation as a viable, self-sustaining homeland for the Chippewa Cree 
Tribe.

IV. CONCLUSION

    H.R. 795, pending before this Committee today, represents the 
culmination of many years of hard work on the part of many people. The 
bill has the support of the Tribe, the State of Montana, and the 
Administration. It ratifies a water settlement Compact that has the 
support of the State of Montana, the Tribe's non-Indian neighbors, and 
the Tribe. And it resolves the Tribe's water right related claims 
against the United States in a fair and reasonable manner. The Chippewa 
Cree Tribe urgently requests that H.R. 795 be enacted into law during 
this first session of the 106th Congress.

    Mr. Doolittle. The Committee will stand in recess for 15 
minutes or until we return, whichever is earlier.
    [Recess.]
    Mr. Doolittle. The Committee will reconvene.
    Mr. Hill is recognized for his statement.

STATEMENT OF HON. RICK HILL, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF MONTANA

    Mr. Hill. Thank you, Mr. Chairman. I want to thank you for 
holding the hearing. I am pleased the Committee has scheduled a 
hearing on H.R. 795.
    I introduced this bill on February 23rd, and I am pleased 
that Senator Burns and Senator Baucus from Montana also 
introduced companion bills at the same time.
    This bill is a culmination of many years of work and 
negotiations in the state, delicate negotiations, and it will 
result in the Federal Government sanctioning this water rights 
compact that has been adopted by the Montana State Legislature.
    The settlement may represent, in my view, a textbook 
example of how a state, tribal governments, local government, 
private landowners together with on and off-reservation local 
communities can sit down and resolve our differences.
    I am also pleased that local ranchers were involved in 
every step of the negotiations. This is how we like to do 
things in Montana.
    So I look forward to us moving the bill out of the 
Subcommittee and completing the long and dedicated journey by 
all the parties that have been involved. I want to thank all 
the panelists from Montana for being here, their dedication, 
their work, their willingness to cooperate with us to try to 
address issues as they have arisen in the process, and I remain 
optimistic that we are going to be able to get this done in 
this Congress.
    I thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Our next witness will be Mr. Chris Tweeten, chief counsel 
to the Montana Attorney General, chairman of the Montana 
Reserve Water Rights Compact Commission. Mr. Tweeten.

   STATEMENT OF CHRIS TWEETEN, CHIEF COUNSEL TO THE MONTANA 
   ATTORNEY GENERAL, CHAIRMAN, MONTANA RESERVED WATER RIGHTS 
                       COMPACT COMMISSION

    Mr. Tweeten. Thank you, Mr. Chairman. I am pleased to be 
here this morning on behalf of Governor Marc Racicot and the 
State of Montana to testify in support of H.R. 795, the Rocky 
Boy's Montana Water Rights Compact.
    I do have a written statement which I believe I have 
submitted previously that I would like to make part of the 
record.
    Mr. Doolittle. Several have mentioned that. Let me assure 
you all your full written statements will be made part of the 
official Committee record.
    Mr. Tweeten. Thank you, Mr. Chairman. I do have three 
points that I would like to cover briefly in my oral remarks.
    First, from Montana's perspective, we believe that this 
compact illustrates the value of locally crafted solutions to 
western water allocation problems. We believe that not all 
western states are like eastern states with respect to their 
water use problems and not all western states are alike either. 
Solutions that work in highly populated water short areas in 
Arizona and California will not always work in Montana, and 
solutions that are good for the largely agricultural economies 
of north central Montana may not be suitable for solving water 
problems in other areas.
    We believe Federal policy must encourage states and tribes 
to work out local solutions to these issues, solutions that are 
tailored to the very economic, geographic and demographic 
issues that exist throughout the West. This compact is an 
excellent example of an agreement that the Federal policy 
should support. We have crafted a compact that provides for the 
foreseeable water needs of the tribe and by creative use of 
state-contributed cost share we have mitigated any potential 
impacts on existing non-tribal uses.
    Briefly, this compact makes storage of spring flow the 
centerpiece of the tribe's water right. The water availability 
situation in north central Montana is such that most of the 
water comes out of the mountains in the springtime as a result 
of snow melt and much of it is gone by the early part of the 
summer. If that storage can be captured and held for use later 
on in the summer, it makes much more water available for all of 
the parties to use.
    State cost share will allow for improved efficiencies of 
diversion structures on Big Sandy Creek, mitigating the effect 
of this increased storage which goes for the benefit of the 
tribe and allows the tribe to capture those and use those 
spring flood flows without adverse impact on downstream users.
    In addition, state cost share also allowed for the purchase 
of stored water from a facility that is owned by Hill County 
downstream from the reservation to mitigate the impact of 
upstream tribal uses, and those uses include in-stream uses 
that are designed to provide environmental mitigation and to 
protect fisheries in Beaver Creek. We think this is an 
excellent example of the way that states and tribes can 
cooperate together in crafting solutions that satisfy the needs 
of both parties.
    Second, Mr. Chairman, I would like to emphasize the fact 
that this agreement has broad and deep support among those that 
are directly affected by its provisions, the members of the 
tribe and the local area ranchers in the Big Sandy and Beaver 
Creek drainages.
    As Congressman Hill has mentioned, as Mr. Hayes has 
mentioned, this has been a long process in which we have spent 
a tremendous amount of time and effort working with local 
ranching communities, many of whom were quite skeptical early 
on in this process about the potential for success in reaching 
an agreement that was going to be beneficial to them.
    Many of those skeptics are now among the strongest 
supporters of this compact. That is a result of hard work on 
the part of our staff, on the part of the Federal team, on the 
part of the tribal negotiating team, and also a result of the 
willingness of the local ranchers to maintain a flexible 
viewpoint towards these issues. We think that this cooperation 
that is fostered as a result of this agreement is going to show 
benefits in other areas as well as we work through other issues 
of contention between the state and the tribe.
    Third, it's important to emphasize how this compact 
integrates administration of tribal water rights into a state-
based water administration system. As you know, there are much 
different legal attributes to Federal reserve water rights and 
those water rights that exist under state law, and frequently 
in litigated outcomes the results are not very satisfactory 
because those issues of administration, that is, how you are 
going to take these different animals and put them together 
into one comprehensive administration system, can't be 
addressed in litigation. That is one of the benefits of 
reaching these solutions through negotiation.
    In this compact we have reached an administrative solution 
that downplays the importance of priority and thus minimizes 
the potential for conflict between tribal users and non-tribal 
users, and we have also created an alternative dispute 
resolution process that provides a quick and inexpensive means 
of resolving those disputes should they arise in the future. We 
think that is a very important feature of the compact.
    Mr. Chairman, I appreciate the opportunity to be with you 
this morning. I would be happy to answer your questions.
    [The prepared statement of Mr. Tweeten follows:]

Statement of Chris D. Tweeten representing the State of Montana on H.R. 
                                  795

    Chairman Doolittle and members of the Subcommittee, my name 
is Chris Tweeten. I am the Chief Counsel to the Montana 
Attorney General and the Chairman of the Montana Reserved Water 
Rights Compact Commission. I am here to testify on behalf of 
the State of Montana and Governor Marc Racicot in support of 
House Bill 795, the Chippewa Cree Tribe of the Rocky Boy's 
Reservation Indian Reserved Water Rights Settlement Act of 
1999, and to urge your approval of the Act. I would like to 
express my appreciation for the time the staff of this 
Subcommittee has taken over the past year to meet with 
representatives of the State, Tribe, and the Administration to 
reach an understanding of the provisions of the Act. The 
purposes of the Act are to: ratify the Compact which settles 
the quantification of the Tribe's water rights in Montana; 
provide the necessary authorization for implementation of the 
Compact; and to settle Federal liability regarding the Tribe's 
water resources by authorizing appropriations for their 
development. My testimony will focus on the Compact and the 
value of negotiated settlements.
    I cannot overstate the importance of the Settlement Act to 
the State of Montana. The unquantified and open ended nature of 
reserved water rights places a cloud over the certainty 
regarding investment in private water development throughout 
the west. The Compact Commission was established by the Montana 
Legislature in 1979 to act on behalf of the Governor to 
negotiate the settlement of reserved water rights as part of 
the state-wide general stream adjudication. The policy of the 
State of Montana in favor of negotiated solutions to 
quantification of tribal water rights recognizes the need for 
individual, site specific solutions to water supply and water 
allocation problems. We believe that negotiation gives us the 
greatest control over the outcome since agreement to a 
settlement is purely voluntary. It also allows consideration of 
the fact that each tribe is unique in its culture, history, 
water needs and potential for conflict over water use with its 
neighbors, and that every basin has unique avenues for 
enhancement of water supply. We have found through years of 
experience that the best approach to resolving that uncertainty 
is through negotiated settlements that allow tailoring of 
solutions on a site specific basis. In Montana, we have 
successfully settled the water rights claims of three Indian 
reservations, five National Park units, three Fish and Wildlife 
refuges and two wild and scenic rivers. In each of these 
settlements we have protected existing water use while meeting 
the needs of the particular reservation.
    Resolution 98-029 of the Western Governors Association 
expressing a preference for negotiated settlement of reserved 
water rights is attached to my testimony. If you look closely 
at the west, it is not difficult to see why we favor 
negotiation, an approach that provides an avenue for the use of 
the uncertainty in the law to craft unique solutions tailored 
to a specific location. Westerners are not one people. We are 
influenced by our landscape to a degree not found in the east, 
and that landscape is diverse. Our climate, even in 
agricultural areas, varies from desert to rain forest. The 
portion of the Rocky Boy's Reservation suitable to agriculture 
receives an average of 12 inches of rain per year. Our growing 
season is as short as 45 days in the Centennial Valley of 
Montana. Water, valued as high as $1,000 per acre foot by urban 
areas in the southwest, cannot be sold in agricultural areas of 
Montana when priced at $10.50 per acre foot.
    The Compact before you for ratification is uniquely 
tailored to meet the needs of the citizens of Montana. The 
site-specific nature of the solutions in the Compact may render 
them inappropriate if applied elsewhere. That is the nature of 
a negotiated solution. It is not an exact science. President 
George Bush, in proposing that the Department of the Interior 
promulgate guidelines for the settlement of Indian reserved 
water rights, stated:

        Indian land and water rights settlements involve a complicated 
        blend of law, treaties, court decisions, history, social 
        policies, technology, and practicality. These interrelated 
        factors make it difficult to formulate hard-and-fast rules to 
        determine exact settlement contributions by the various parties 
        involved in a specific claim.
    A uniform approach to analysis of Indian water rights settlement, 
or an overlay of new pre-requisites to settlement, would adversely 
impact negotiations throughout the west. The need for Congressional 
ratification of each settlement allows review on a case-by-case basis, 
thus eliminating the need for uniform standards. A chill in 
negotiations has already been felt by western states due to the 
reluctance of Congress to ratify this Compact last year. I strongly 
urge you to help us move this forward and send a signal to western 
states that Congress will not stand in the way of the settlement of 
reserved water rights.
    The Tribal Water Right created by the Compact and the Act is a 
settlement right and its attributes should not be considered to 
represent a legal interpretation of how the rights of the Tribe would 
be interpreted should they be litigated in court. Negotiation differs 
from litigation. The focus in negotiation is on finding a compromise 
that meets the needs of the Tribe and can therefore be approved by 
their Council, while, at the same time, protecting investment in state-
based water rights. In litigation, downstream junior water wers can 
expect no protection for their water rights.
    The following paragraphs will briefly describe some of the unique 
aspects of the agreement and their relation to water use on private 
land in Montana. A summary of the Compact and the authorizations for 
appropriations in the Settlement Act is attached to my testimony.
    The Rocky Boy's Reservation is one of four Indian Reservations with 
land and water right claims in the Milk River Basin. The Milk River has 
its headwaters in Glacier National Park, then flows onto the Blackfeet 
Reservation where it receives water from another basin as part of one 
of the United States' first Reclamation Projects--The Milk River 
Project. The Milk River, with its enhanced water supply, then flows 
into Canada where it cuts through the Provinces of Alberta and 
Saskatchewan before re-entering the United States. It is downstream 
from this point of re-entry that the Milk River serves seven irrigation 
districts as part of the Milk River Project. Considerably downstream 
from its beginning, the Milk River forms boundaries to both the Fort 
Belknap and Fort Peck Indian Reservations. It is one of the most 
heavily used and re-used rivers in the United States, and is estimated 
to be water-short in as many as 5 out of 10 years.
    The Rocky Boy's Reservation is located in the Bearpaw Mountains on 
two tributaries to the Milk River: Big Sandy and Beaver Creeks. The 
Reservation is home to over 3,500 Tribal members who are also citizens 
of Montana. The Reservation has an estimated 70 percent unemployment 
rate. The Reservation is located in an area of scarce water supply. The 
drinking water system on the Reservation is currently inadequate, 
providing only 60 gallons per capita per day to households served, 
compared to a Montana average of 170. Not all households on the 
Reservation share in even this inadequate supply. Because groundwater 
is of poor quality and low yield in this region of Montana, many of the 
surrounding communities and ranches rely on treated surface water for 
their drinking water supply. The Reservation lags behind the region in 
the development and treatment of surface water for domestic purposes.
    The Compact provides a settlement quantification of 20,000 acre-
feet per year. Unlike the farmland irrigated by the Milk River Project 
along the bottomland of the mainstem, tributary water use is associated 
primarily with cattle grazing and growing of hay. Without the storage 
provided by the Milk River Project, streamflow is intermittent with 
large spring floods and late summer drought. The provisions in the 
Settlement Act providing for on-Reservation storage and development 
will allow the Tribe to maximize the utility of this limited water 
supply by providing a reliable supply of irrigation water for 
approximately 2,500 acres of Reservation land. On-Reservation water 
development authorized by H.R. 795 involves enlargement of existing 
storage on the two dominant drainages on the Reservation, Beaver Creek 
and Box Elder Creek (a tributary to Big Sandy Creek).
    The Rocky Boy's Reservation shares Big Sandy Creek with 
approximately 8,500 acres of irrigated private land located off the 
Reservation. On Beaver Creek, there are approximately 3,600 acres of 
off-Reservation private irrigation. The growing season is short. Small 
scale storage projects that will capture some spring run-off, such as 
those authorized on the Reservation by this bill, are the best way to 
enhance water supply. To prevent impact by those projects on water use 
on private land, the State has funded local improvements in conveyance 
and diversion structures and is promoting improved management of 
existing storage. Description of the specific measures taken to prevent 
impact on private water use by development of water on the Reservation 
follows.
    The enlargement of the Tribe's Bonneau Reservoir on Box Elder Creek 
will enhance stream flow during late summer, but will reduce spring 
flow that is generally relied on by irrigators downstream on Big Sandy 
Creek. A State grant will be used to improve conveyance and diversion 
structures off the Reservation so that water users may operate on the 
lower spring flows anticipated once the Tribe enlarges existing storage 
on the Reservation. In addition, a 240 acre-foot pool of water will be 
held in Bonneau Reservoir to be released during late summer to maintain 
water quality for stockwatering that might otherwise be impaired by low 
quality irrigation return flow.
    Increased storage and diversion from Beaver Creek on the 
Reservation could impact downstream irrigators with a senior right to 
divert from natural stream flow. Coordinated use of reservoirs on and 
off Reservation will mitigate impacts on downstream senior water 
rights. However, release of water from the small reservoir on the 
Reservation for irrigators with operations over fifteen miles 
downstream would be highly inefficient due to conveyance loss, and 
would prevent realization of the Tribe's development plan. Lower Beaver 
Creek Reservoir, owned by Hill County and located downstream from the 
Reservation, had contract water available for sale when contracts were 
renewed in 1996. Pursuant to the Compact, the State entered an Option 
to Purchase contract water for release to mitigate impacts from 
development of the Tribe's right. In effect, this transfers any 
``call'' for water by senior water users from the Tribe's diversions to 
Lower Beaver Creek Reservoir.
    Beaver Creek Park is owned and operated by Hill County, and is 
located immediately downstream from the Reservation on Beaver Creek. It 
is a natural park with camping and an important brook trout fishery. A 
minimum instream flow is necessary to maintain a viable fishery. The 
Compact includes provisions for release of water from the Tribe's 
enlarged East Fork Reservoir to maintain a minimum flow. In addition, 
the Compact includes an agreement by the State and the Tribe to jointly 
study the streamflow and the needs of the fishery to more precisely 
define the minimum flow.
    In addition to protection of state-based rights, Montana has 
strongly asserted that in negotiating water allocation solutions, it 
will not pit tribe against tribe. In settling, we considered the rights 
of the Gros Ventre and Assiniboine Tribes of the Fort Belknap 
Reservation located downstream from the Rocky Boy's Reservation on the 
Milk River. As a practical matter, the impact from use of water on 
tributaries to the Milk River by the Chippewa Cree Tribe will not have 
a measurable impact on the flow of the Milk River. Furthermore, release 
of the water purchased from Lower Beaver Creek Reservoir by the State 
will help prevent impact on the Milk River on which Fort Belknap 
relies.
    Negotiation allows the State to settle issues that, in litigation, 
would be left for another day. The Compact contains provisions on 
administration that should reduce the potential for future conflict 
between the Tribe and its neighbors and expedite the process of dispute 
resolution during critical periods such as the irrigation season. 
First, the Compact addresses transfers of the Tribal Water Right. Under 
State law, water users may market appropriative water rights. 
Consistent with that attribute of water rights arising under State law, 
the Compact provides that the Tribal Water Right may be transferred off 
the Reservation. However, off-Reservation use of the Tribal Water Right 
subjects it to full compliance with State law. Thus, pursuant to 
Article IV.A.4.b. of the Compact any off-Reservation use or transfer of 
any portion of the Tribal Water Rights must comply with state law for 
both water use and diversion facilities. In addition to state law 
protections, the Compact limits marketing of the Tribal Water Right to 
the Missouri River basin and gives water users on the water-short Milk 
River a right of first refusal for any marketing of tribal water. 
Article IV.A.4.b.
    Second, to avoid daily administration between the Reservation and 
off-Reservation water users in dry years, water is allocated as a block 
for each tributary on which there is both private and Reservation land. 
Montana, as with most western states, allocates water in times of 
shortage in order of priority of the date of development. In dry years, 
junior priority water users must curtail or cease water use so that 
senior rights are satisfied. This requires close monitoring of stream 
flow and coordination of diversion. The Compact eliminates priority 
administration between the Tribe and other water users. Provided the 
Tribe is using water within its allocation, water users off the 
Reservation agreed not to assert priority over the Tribe's water. 
Similarly, provided water users off the Reservation are using water 
within the amount of their right, the Tribe agreed not to assert 
priority over state-based rights. To give effect to the allocation by 
preventing further demands on a short water supply, the drainages are 
closed to new penrnits for water use under state law. This approach 
minimizes the interaction necessary and, therefore, the potential 
interference with the jurisdiction of each sovereign to manage its 
water.
    Third, in the event a dispute does arise, the Compact provides for 
an initial effort between the water resource departments of the State 
and the Tribe to resolve the dispute. Should the informal process fail 
to reach resolution, the Compact establishes a Compact Board with both 
Tribal and off-Reservation representation to hear disputes. Decisions 
may be appealed to a court of competent jurisdiction.
    The Compact provides for full settlement to claims of the Chippewa 
Cree of the Rocky Boy's Reservation to water within the State of 
Montana. The Compact includes a release of all claims stating:

        ``The parties intend that the water rights and other rights 
        confirmed to the Tribe in this Compact Are in full satisfaction 
        of the Tribe's water rights claims, including Federal reserved 
        water rights claims based on Winters v. United States, 207 U.S. 
        564 (1908). In consideration of the rights confirmed to the 
        Tribe in this Compact, . . . the Tribe and the United States as 
        trustee for the Tribe hereby relinquish any and all claims to 
        water rights of the Chippewa Cree Tribe within the State of 
        Montana existing on the date this Compact is ratified by the 
        State and the Tribe, whichever date is later.
    The State of Montana concurs with the Chippewa Cree Tribe and the 
Administration that this is a fair and equitable settlement that will 
enhance the ability of the Tribe to develop a sustainable economy while 
protecting existing investments in water use by off-Reservation 
ranchers who rely on state-based water rights. We appreciate the 
efforts of both the Tribe and the Administration to work with us in 
reaching this agreement and, in doing so, to listen to and address the 
concerns of water users off the Reservation.
    The Compact has the full support of local ranchers, farmers, and 
elected officials. Arriving at these unique solutions involved the most 
intensive process of public involvement undertaken by the Commission to 
date. Because both the timing and volume of stream flow on the two 
drainages shared with the Reservation is so constrained, it was 
essential for the Commission to understand the water needs of each 
rancher and to engage them in the process of designing solutions. 
Public involvement began in 1992 with a public meeting in which over 
200 citizens attended. Following that meeting the Commission began a 
five year process of kitchen table meetings with individuals ranch-by-
ranch. Out of this process, trust and mutual respect developed. Many of 
the solutions suggested by ranchers are now found in the Compact. The 
same ranchers who expressed concern in 1992 testified in support of the 
Compact during legislative hearings in 1997. The value of this Compact 
in improved relations between neighbors on and off the Reservation 
alone is unquantifiable. The Compact received overwhelming support in 
the Montana Legislature. The level of support reflects the fact that 
this is truly a settlement that addresses the needs of all those 
affected. The Compact was ratified by the Montana Legislature without 
opposition and is codified in the Montana statutes at 85-20-601, MCA.
    I appreciate the opportunity to testify on behalf of the State of 
Montana in support of the Chippewa Cree Tribe of the Rocky Boy's 
Reservation Indian Reserved Water Rights Settlement Act of 1999, and 
urge your timely approval of the Act. The settlement has the full 
support of the State, the Tribe, ranchers, surrounding communities, and 
local officials in the area. Because it relies on enlargement of 
existing storage and mitigation of impacts of new development through 
efficiency improvements, it has no environmental opposition. No 
endangered species are known to be involved. We know of no opposition 
to this settlement. On behalf of Montana I urge you to pass this bill 
and thereby signal to western states that the United States, after a 
long hiatus, is once again prepared to help us move toward finality on 
resolving these Federal claims in our adjudications, rather than 
opening these issues to further uncertainty and protracted debate. 
Passage of this Act will help us bring this long process of settlement 
to closure. I would be happy to answer any questions by members of the 
Subcommittee.
[GRAPHIC] [TIFF OMITTED] T6306.001

[GRAPHIC] [TIFF OMITTED] T6306.002

[GRAPHIC] [TIFF OMITTED] T6306.003

[GRAPHIC] [TIFF OMITTED] T6306.004

[GRAPHIC] [TIFF OMITTED] T6306.005

A[GRAPHIC] [TIFF OMITTED] T6306.006

[GRAPHIC] [TIFF OMITTED] T6306.007

[GRAPHIC] [TIFF OMITTED] T6306.008

[GRAPHIC] [TIFF OMITTED] T6306.009

[GRAPHIC] [TIFF OMITTED] T6306.010

[GRAPHIC] [TIFF OMITTED] T6306.011

[GRAPHIC] [TIFF OMITTED] T6306.012

[GRAPHIC] [TIFF OMITTED] T6306.013

[GRAPHIC] [TIFF OMITTED] T6306.014

[GRAPHIC] [TIFF OMITTED] T6306.015

    Mr. Doolittle. Thank you.
    Our final witness is Mr. Roger Fragua, manager, American 
Indian affairs, Enron Corporation. Mr. Fragua.

 STATEMENT OF ROGER FRAGUA, MANAGER, AMERICAN INDIAN AFFAIRS, 
                       ENRON CORPORATION

    Mr. Fragua. Good morning, Mr. Chairman, Representative 
Hill, staff, tribal leaders, and other honored guests. It is a 
real pleasure to be invited to address you this morning on an 
issue that is so politically, professionally and personally 
important to me.
    In addition to my submitted written testimony, which I hope 
you have a chance to review, I would like to offer these brief 
verbal comments.
    For the record, my name is Roger Fragua. I am from the 
Pueblo of Jemez, which is a small but traditional tribe located 
about 50 miles northwest of Albuquerque, New Mexico, in the 
arid southwest. I've had the honor of serving my tribe as an 
administrator for several years and continue to hold a strong
[GRAPHIC] [TIFF OMITTED] T6306.016

sense of commitment to my tribe and the Indian country in 
general.
    Serving my tribe as administrator, one of my chief 
responsibilities has been community and economic development. 
The traditional process of economic development at my tribe and 
others is one that generally is coined as the ``deal of the 
week'' where oftentimes a non-tribal developer brings an idea 
or a concept to our tribe that utilizes our natural resources, 
captured labor force, and political status, oftentimes in 
exchange for royalty position far removed from full economic 
potential.
    As a tribal member I am interested in enhancing this 
process and building more self-sufficient, self-sustaining and 
self-determined economic development.
    In 1997 our tribe took a more holistic approach to 
development, to include an assessment of our tribal resources, 
position, and the community's desires for economic development. 
We began with a critical assessment of our utility 
infrastructure. Jemez has no natural gas distribution to our 
community; we pay some of the highest rates for electricity in 
the state; and water continues to be a health issue for our 
community to deal with. With this deck of cards it's hard to 
become a real player in a meaningful development.
    Our tribal council created a working conference centered on 
electricity. Since we learned that the industry was headed 
toward deregulating itself, we wanted to discern our 
opportunities and challenges in a deregulated market. It was 
then that we learned that there are opportunities for tribes, 
and I had the pleasure of meeting Christy Patrick, the vice 
president at Enron. I learned that Enron is the world's leading 
energy company with vast financial and physical assets, but 
most importantly, intellectual resources that could bring 
incredible creative solutions to some of our tribal issues and 
concerns.
    After several discussions with my tribal leadership, we 
carved out a loan program where I could go to Enron and learn 
more about the energy industry and bring that knowledge and 
experience to my tribe and share it with many other tribes as 
well.
    Together we created the American Indian Affairs Group, 
which is a distinct commercial group within Enron to promote 
Enron and tribal partnerships. In fact, Enron has already had a 
long history of working with tribes responsibly that evolved 
over a relationship of necessity such as permitting and right-
of-way transactions to our more current proactive process of 
building real partnerships with tribes.
    The partnership concept consists of the strengths and 
challenges that each of the entities bring to create a more 
strong and complete whole. We know and understand that tribes 
bring market, customer bases, natural resources, regulatory and 
tax advantages, and industry brings financing capabilities, 
market risk management, technical and operational expertise. 
This is very exciting and well received in Indian country thus 
far.
    We feel that our experience in energy development working 
with tribes can be transferred to water with the recent 
addition of Azurix, our new water company.
    As we have already discussed with the Chippewa Cree Tribe, 
our proposal is simple. We work with our prospective tribal 
partners to conduct a joint assessment of the tribe's resources 
and potential commercial opportunities and move forward in a 
partnership mode with the tribes to create economic development 
that is more culturally, environmentally and economically sound 
for both parties.
    We look forward to working with the Cree Tribe and their 
water opportunities that the water settlement may bring them.
    Thank you for the opportunity to address this panel.
    [The prepared statement of Mr. Fragua follows:]

  Statement of Roger Fragua, Manager, American Indian Affairs, Enron 
                                 Corp.

    Mr. Chairman, Members of the Subcommittee, and honored 
guests here today, my name is Roger Fragua and I am manager of 
American Indian Affairs for Houston, Texas-based Enron Corp. I 
am honored to appear before the Subcommittee today and thank 
you for the opportunity to testify at this hearing on two areas 
of increasing interest to Enron: American Indians and water.
    Enron is one of the world's leading energy companies, with 
special emphasis in natural gas and electricity, but with 
rapidly growing interests in markets for other commodities and 
services such as water and telecommunications. Enron owns 
approximately $30 billion in energy related assets, produces 
electricity and natural gas, develops, constructs and operates 
energy facilities worldwide, delivers physical commodities, and 
provides risk management and financial services to customers 
around the world.
    Enron is consistently recognized as a leader in the energy 
industry not only measured by financial and physical assets, 
but by our vast intellectual resources. Our intellectual 
resources create new and emerging markets, products and 
technologies that consistently create positive global impacts. 
In North America, one market in which Enron is very actively 
engaged is American Indian Tribes and reservations. To promote 
this market, Enron's organization includes a distinct 
commercial business unit: Enron American Indian Affairs.
    In fact, Enron has a long history of responsibly working 
with many American Indian Tribes. Our involvement began many 
years ago when Enron was largely a gas transmission company 
with pipelines crossing many miles of Indian lands, 
participating in numerous amicably negotiated settlements of 
rights-of-way and permits. From this friendly and mutually-
respectful relationship with several Tribes, Enron's 
involvement in Indian Country has evolved to the current 
independent proactive business unit that is joining together 
Enron with Indian Country as multifaceted partners in energy 
projects.
    We value our Tribal relationships and are working toward 
enhancing the Tribal capacity in order to build strong business 
partnerships. For example, to assist in developing strong 
Tribal energy partners, Enron embarked on an energy education 
program throughout Indian Country, sponsoring energy 
conferences among regional groups of Tribes, as well as for 
individual Tribes. These conferences included not only 
presentations by Enron and other energy companies, but 
facilitated work sessions exclusively for Tribal leadership, 
where Tribal participants could map out self-determined energy 
strategies, in order to position the Tribe to partner equally 
with corporate America. Enron continues to sponsor this 
conferencing effort, and we believe that when Tribes have 
determined their energy strategies, Enron will prove itself to 
be the best energy partner of choice for Indian Country as we 
can tailor energy services to meet special Tribal needs. That's 
what competition is all about--being responsive to the 
customer, in this case the Tribe.
    As result of this effort, today Enron American Indian 
Affairs is working as energy partners with several Tribes 
throughout North America to develop electric, gas and now, 
water projects. The Enron-Indian Country partnership is built 
on mutual respect and admiration for the collective strengths 
that each entity brings to create a greater whole than either 
entity possesses individually. We recognize that the strengths 
of Indian Country lie in its growing market and customer bases, 
vast natural and renewable resources, and regulatory and tax 
advantages based on Tribal political status as a sovereign 
nation. As to Enron's part of the partnership, Enron brings 
financing, market risk management and technical and operational 
expertise and experience.
    As of January 1999, Enron formed its own water company, 
Azurix Corporation. Through Azurix, we are now delighted to add 
privatized water expertise to our energy portfolio. Azurix is 
currently listed on the New York Stock Exchange and is poised 
to become a global water company engaged in the business of 
acquiring, operating and managing water and wastewater assets, 
providing water and wastewater related services, and in 
assisting its clients to manage and develop their water related 
assets. The capabilities of Enron American Indian Affairs are 
especially enhanced with the addition of Azurix to recognize 
the significant and timely water issues in Indian Country.
    To this end, Enron American Indian Affairs now works in 
several additional ways with Tribes: (1) adding water to a 
``bundled'' energy picture in exploring energy partnership 
opportunities, (2) assessing water opportunities independently 
with Tribes, and (3) assisting Tribes to evaluate and manage 
their tribal water resources from a total resource development 
and management perspective. In all cases, with the addition of 
specific water expertise to our intellectual capital base, 
Enron's long experience in gas and electricity is readily 
transferable to the water arena.
    In pursuing energy opportunities with Tribes, Enron's 
approach has been fairly simple: We seek Tribal partners that 
are equally motivated in seeking ``for-profit'' energy projects 
that are culturally, environmentally and economically sound. 
The valuation and feasibility process begins with a 
comprehensive energy assessment performed by Enron, at Enron's 
expense, of a Tribe's resources, physical infrastructure, and 
location to markets and general willingness to become 
proactively engaged in the energy industry. In exchange for 
this assessment, the Tribe contractually agrees to make Enron 
its preferred energy partner through mechanisms such as giving 
Enron a right of first refusal to pursue projects arising from 
the energy assessment. We anticipate that water opportunities 
will be explored in a similar manner.
    Today, we are currently pursuing assessments with large and 
small Tribes, aggregations of more than one Tribe, as well as 
entities such as BIA schools. All assessments and transactions 
are custom designed for the specific tribal entity or entities. 
As noted above, while our previous focus has been on gas and 
electricity, we are now including in these assessments any 
potential opportunity existing with a Tribe's water resources, 
as well as wastewater treatment and water management.
    The U.S. water industry is one of the most inefficient 
industries in our nation today. As a leader and participant in 
developing restructured markets in gas and electricity, Enron 
sees many parallels between the status of these energy 
industries 15-20 years ago with the water industry today. Just 
as Enron led the evolution of natural gas and electric 
restructuring, we are excited to take a similar role in the 
water industry. In developing energy partnerships with Tribes, 
including water project partnerships, Enron and Tribes can 
explore together new opportunities and markets based on a more 
efficient use of water.
    The future of water lies in the efficient use of water in 
restructured, open markets. In often complicated water issues, 
Enron offers talent and innovative thinking to provide 
management skills and new ideas that are unparalleled in the 
industry. As we are doing in natural gas and electricity, we 
believe Enron and Azurix, in partnership with Tribes, can 
together create mutually profitable commercial opportunities 
with respect to water resource development and management 
resulting in maximized economic potential for each partner.

    Mr. Doolittle. Thank you very much.
    Mr. Hayes, inasmuch as the Administration, I understand, 
does not support Federal funding of a delivery system to bring 
the Tiber Reservoir water to the reservation, what do you 
believe are the most promising ways available to the tribe to 
make use of the Tiber water supply that is provided in the 
bill?
    Mr. Hayes. Mr. Chairman, we support reasonable efforts to 
bring the water to the reservation. We are not saying we don't 
support a delivery system. Our view is twofold.
    First, in terms of the settlement, we think a contribution 
capped at $15 million is an appropriate fund to set aside for a 
future delivery system.
    Number two, we believe that other options should be 
studied. In fact, another aspect of the legislation has the 
tribe taking the lead in studying an alternative to the 
regional water supply system that has been analyzed.
    It is our view that it will in the future be likely 
important for the tribe to have access to this water for 
drinking water purposes, and we are hopeful that the fund that 
is being set aside and that will earn interest will be adequate 
to fund whatever future system makes the most sense at that 
time, but I don't think any of us are prepared to identify what 
that is today.
    Mr. Doolittle. Does the Administration have any problem 
with our efforts to split the bill into two titles, address the 
non-appurtenant question while assuring the tribe rights in the 
Tiber Reservoir allocation?
    Mr. Hayes. No, Mr. Chairman. We are willing to work with 
you and your counsel on that subject.
    Mr. Doolittle. What limitations exist on the Administration 
to help the tribes get professional or business assistance in 
finding ways to better utilize their water rights?
    Mr. Hayes. Let me say at the outset that we appreciate your 
leadership in bringing the business community into this matter. 
We are very supportive of the business community's interest 
with this tribe and other tribes.
    The only limitation, frankly, is financial. Our entire 
budget for negotiating water rights matters nationwide is now 
$11 million. We would like to participate as much as possible 
in these discussions, but we have some limits in that regard.
    To the extent that our financial assistance is not needed, 
it is certainly not an issue. We are very supportive of the 
concept that you are putting on the table, Mr. Chairman.
    Mr. Doolittle. Thank you. Will the administration work with 
us to encourage the private sector to assist the tribes in this 
endeavor?
    Mr. Hayes. We certainly will.
    Mr. Doolittle. Thank you very much. You indicate that money 
will be appropriated to repair dangerous dams. What programs 
are currently available with the department that already 
authorize the disbursement of monies for these projects?
    Mr. Hayes. We have a safety of dams program, of course, and 
safety of dams funds on the Bureau of Indian Affairs side of 
the house have been scarce, unfortunately.
    Just to clarify the record on this, the primary dam in 
question, Bonneau Reservoir, has been stabilized so that it is 
not a threat. That is my understanding. The complete securing 
of the dam for a permanent basis will be most efficiently done 
in connection with the enlargement of the reservoir that will 
accompany the implementation of this statute. So we are trying 
to address this in an efficient, cost effective, and safe 
manner.
    Mr. Doolittle. Could you explain how is it that these dams 
have been allowed to become dangerous?
    Mr. Hayes. It's a budgetary problem, Mr. Chairman. This is 
again funded through the BIA, and our request for funds in this 
regard have been cut back. What we do is do a ranking of the 
most dangerous dams in the country and give top priority, 
somewhat like responding to a fire to deal with those 
situation.
    Anything you could do to help us secure good funding for 
the safety of dams program--because it is obviously a matter of 
life and death potentially in some situations, and we are doing 
the best that we can. We are pleased that this settlement will 
help secure these facilities, not on a patchwork basis, but on 
a permanent basis, which is the way it should be.
    Mr. Doolittle. We will assist you in your efforts. I hope 
that Interior will be vigorous in pressing its claim with the 
Administration for the necessary monies to do this work and not 
let them fall into that condition.
    Let me switch to Mr. Tweeten for a minute. In your 
testimony you indicate that the State of Montana has worked on 
this settlement for almost a decade, and then you state that 
``a chill in negotiations has already been felt by western 
states due to the reluctance of Congress to ratify this compact 
last year.''
    Do you think it is unreasonable for the Congress to 
thoughtfully consider the first Indian water rights settlement 
brought before it in the last decade?
    Mr. Tweeten. Mr. Chairman, certainly not. I do think it's 
important for Congress to keep in mind as well that states are 
watching and tribes are watching as Congress works on this 
compact and brings it forward through the ratification process, 
and the signal from the Congress to the states that when states 
do what we have done with this compact, which is to assiduously 
address all of the issues and concerns that are raised on the 
local level and to present you with a package that we think is 
very well thought out and very well crafted, that Congress is 
going to go the next step with us in an expeditious way, I 
think would send an important signal to the states and tribes 
about the support of the Congress for their efforts in this 
area.
    Mr. Doolittle. Does the State of Montana have any problem 
with our efforts to split the bill into two titles that address 
the non-appurtenant question while assuring the tribe rights in 
the Tiber Reservoir allocation?
    Mr. Tweeten. Mr. Chairman, we have no objection in 
principle to the splitting of the bill into two titles. We are 
concerned about making sure that the language that is used to 
accomplish that maintains the current structure of the compact 
so that the water that is allocated to the tribe in Tiber 
remains a part of a tribal water right that is subject to all 
of the protections for non-Indian users that the tribal right 
is subject to under the compact, but in principle we have no 
objection.
    Mr. Doolittle. I assume you will be working with us as we 
make sure the language reflects our common intent to give 
effect to these provisions.
    Mr. Tweeten. Mr. Chairman, we certainly will.
    Mr. Doolittle. Thank you.
    Mr. Morsette, does the tribe have any problem on this issue 
of splitting the bill into two titles, one of which addresses 
the non-appurtenant question while assuring the tribe rights in 
the Tiber Reservoir allocation?
    Mr. Morsette. No, sir, we don't. What we submitted to Mr. 
Faber is what we agreed with, and we would be willing to work 
again--What Mr. Tweeten just said. We are willing to work with 
the community to work that out if there are any other issues 
involved.
    Mr. Doolittle. Thank you.
    Mr. Fragua, I gather you have had a chance to meet with the 
representatives of the Rocky Boy's Tribe.
    Mr. Fragua. Yes, we have.
    Mr. Doolittle. What ideas or thoughts do you have just from 
the opportunity you have had to assess the situation relative 
to what they might do to improve upon their situation?
    Mr. Fragua. We've had a very brief meeting with the 
Chippewa Cree of the Rocky Boy Tribe. Our preliminary 
assessment is this. They seem generally interested in our 
concept of partnering. We seem generally interested in working 
with Indian country in a partnership mode. To that extent, that 
is where we are in our discussions.
    We are anticipating an opportunity to address the tribal 
council at some point, and maybe even after that to have an 
opportunity to take a physical assessment and looking at the 
opportunities and then render some of that intellectual capital 
that we had suggested earlier to be able to bring some creative 
solutions. But at this point we have only very briefly met with 
the Rocky Boy Tribe.
    Mr. Doolittle. I think your involvement in this is a very 
positive development and may well be of real assistance to not 
only this tribe, but to the extent that we set a pattern for 
this kind of cooperation to occur between future tribes and 
business in developing their water resources, I think that 
would be very positive.
    At this point I recognize Mr. Hill for any questions that 
he may have.
    Mr. Hill. Thank you, Mr. Chairman. Again let me thank all 
the members of the panel, all the people who have worked on 
this for their patient persistence in helping us get this done 
and their willingness to cooperate with our Committee and the 
staff.
    I would just comment that Congress reserved the authority 
to ratify these agreements with the intention that the Congress 
would exercise oversight over the agreement. I don't think it 
was ever an intention that Congress would just ratify whatever 
occurred or rubber stamp, and I think everybody understands 
that. Certainly the Chairman has reconfirmed that as we have 
gone through this process.
    Mr. Tweeten, could you explain to the Committee why the 
State of Montana is willing to agree to allow the tribe to 
market water allocated to the settlement from sources on the 
reservation?
    Mr. Tweeten. Thank you, Mr. Chairman, Congressman Hill. 
First of all, I think it needs to be understood that it's part 
of the public policy of the State of Montana to allow water 
users under certain restrictions to lease their water rights. 
Non-Indian, non-tribal water rights can be leased under Montana 
law. Initially we didn't see any fundamental objection to 
extending the same privilege to the tribes that is extended to 
water users under state law to lease their water rights. We see 
that there are real possibilities for benefits to the state 
water users from the ability of the tribe to lease its water.
    You need to understand that in this area of Montana the 
largest water use by far involves irrigated agriculture. The 
Milk River Basin is over-appropriated. It has been closed to 
new agricultural appropriations for several years. The 
opportunity to lease water from either the Rocky Boy's Tribe or 
from the other tribes in the basin that may end up with water 
rights that could be leased may in fact be the only opportunity 
that exists for additional development of new irrigation water 
in the Milk River Basin in the future. So there is a real 
tangible benefit to agricultural interests in the Milk River 
Basin by allowing this tribe and other tribes to market on the 
same basis as other water users.
    We have also included in the compact some very significant 
protections that guarantee the interests of the State of 
Montana in this area. We have limited in the compact and the 
tribe has agreed to limit their leasing to the Missouri River 
Basin. Water users within the Milk River Basin are allowed a 
right of first refusal on any leasing proposal. So they have 
the opportunity to keep the water within the Milk River Basin. 
The tribe has agreed that any off-reservation marketing 
opportunities will be exercised in full compliance with state 
law with respect to both water use and the construction of 
conveyance structures.
    Most importantly, the tribe has agreed that no marketing 
opportunity will be undertaken that has any adverse effect on 
any existing users under state law. These are very important 
protections that the tribe has agreed to, and with those 
protections we are very comfortable with the opportunities that 
the tribal leasing will offer us in the future for water users 
in Montana.
    Mr. Hill. It's true that the potential at least exists 
under this arrangement for users in areas where we have 
insufficient water to be able to take advantage of this compact 
beneficially, municipal use, agriculture use, that otherwise 
wouldn't have an opportunity, right?
    Mr. Tweeten. Mr. Chairman, Congressman Hill, that is right.
    Mr. Hill. Also, Mr. Tweeten, do you have any objection to 
the tribe developing a business plan for its on-reservation 
economic development?
    Mr. Tweeten. Congressman Hill, we have no objection to the 
development of a business plan. Indeed, it makes sense that the 
economic development efforts of any enterprise, whether it be 
tribal or non-tribal, be conducted in pursuit of carefully 
thought out planning.
    We are concerned from a process standpoint with the 
creation of an obligation imposed by Federal law that certain 
kinds of business planning or certain avenues of business 
planning become mandatory in these settlements. We certainly 
would hope that if Congress were thinking of imposing such a 
requirement that it wouldn't, first of all, do it in the 
context of a compact that has already been negotiated so we 
would know what the rules are going in and could craft our 
compact around that requirement.
    Furthermore, we think it's important that if Congress 
thinks that those kinds of planning obligations ought to be 
imposed that you conduct hearings and take comment from a 
broader range of tribes and states than simply Montana and the 
Rocky Boy's Chippewa Cree Tribe. I know other tribal entities 
and other states certainly have an interest in this question 
and I'm sure they would like to make their views known to the 
Congress on it as well.
    Mr. Hill. If a water compact contemplates a commercial use 
of the water, it seems reasonable that Congress might say what 
are the potentials of that and why do you want to do that. You 
don't object to that.
    Mr. Tweeten. No, Congressman Hill, we don't object to that.
    Mr. Hill. Mr. Morsette, there is some urgency on the 
reservation, isn't there, with regard to getting this resolved? 
You have got some health issues with regard to water quality on 
the reservation, and obviously there are economic development 
needs on the reservation. Would you address those to the 
Committee?
    Mr. Morsette. Mr. Chairman, Representative Hill, our 
population is growing at an astounding rate. We have people 
returning to the reservation that don't have anyplace to live. 
We have some wastewater treatment facility problems. We have a 
population that we can't take care of right now, and we need 
extra water; we need economic development; we need jobs; we 
need a lot of things on the reservation.
    We look at this as a start, the beginning, where we can 
start storing some water and using it for agriculture, where we 
can start irrigating some of the arable land we have, and going 
down the road to sustain ourselves for the future, for the 
economic stability of our tribe. This is our beginning, we 
hope. We look at this as a big time in our history.
    Mr. Hill. Thank you. Again, I want to thank all the 
panelists, the Chairman and the staff for our ability to work 
through some of the issues that have been raised. I am 
optimistic now we are going to be able to move legislation. I 
thank you, Mr. Chairman, for allowing me to participate in the 
hearing and I again thank all the panelists.
    Mr. Doolittle. I thank you. I want to especially 
acknowledge Mr. Hill's leading the effort in Congress to bring 
this about. I know it has been slower than he had hoped, but I 
do think what we have come up with here is a good product that 
will stand the test of time and will set a good precedent for 
the future.
    I again acknowledge the contribution of the tribe, the 
State of Montana, and the Federal Government led by Mr. Hayes, 
and all the other participants, the stakeholders in this 
matter.
    There will be further questions no doubt we may wish to 
tender to our witnesses. We would ask you to please respond to 
them expeditiously, and we will hold the record open for those 
responses to come back in. We thank all of you for taking your 
time and making the effort to come here today.
    With that, this hearing is adjourned.
    [Whereupon at 11:59 a.m. the Subcommittee was adjourned.]

                                <greek-d>

</pre></body></html>
